State of Ohio's Efforts to Account for and Monitor Sub-Recipients' Use of Public Health Preparedness and Response
to Bioterrorism Program Funds
Department of Health and Human Services
Office of Inspector General -- AUDIT
"State of Ohio's Efforts to Account for and Monitor Sub-Recipients' Use of Public Health Preparedness and Response
to Bioterrorism Program Funds," (A-05-03-00077)
September 19, 2003
Complete
Text of Report is available in PDF format
(285 KB). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether the Ohio Department of Health (State agency): (i) properly recorded, summarized
and reported bioterrorism preparedness transactions by specific focus area designated in the cooperative agreements and
(ii) whether the State agency had controls and procedures to monitor sub-recipient expenditures of CDC funds.  Based
on our validation of a questionnaire completed by the State agency and our site visit, we found that the State agency generally
accounted for program funds by specific focus area.  In response to our inquiry as to whether the State agency reduced
funding to existing public health programs, State officials replied that program funding had not been used to supplant
existing State or local programs. We recommended that the State agency implement the site visit component and address problem
areas, as they are identified.  The State agency concurred with our findings and recommendation.